CASH REWARDS CREDIT CARD AGREEMENT
(Personal Accounts)
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

16.24%

APR for Cash Advances

18.00% Fixed

Penalty APR and When it
Applies

18.00% Fixed
This APR may be applied to your account if you make a late payment.

This APR will vary with the market based on the U.S. Prime Rate.

How Long Will the Penalty APR Apply?: This Penalty APR will apply until you make six
consecutive Minimum Payments when due.
Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
interest on Purchases if you pay your entire New Balance by the Payment Due Date each
month. We will begin charging interest on Cash Advances on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
• Foreign Transaction

3% of the U.S. dollar amount of any Purchase or Cash Advance made in a foreign currency

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater

Penalty Fees
• Late Payment

Up to $40

• Returned Payment

Up to $40

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new Purchases).”
See the paragraph of this Agreement titled “Computing Your Interest Charge” for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in this
Agreement.
SEE NEXT PAGE FOR IMPORTANT INFORMATION ABOUT YOUR ACCOUNT.

Cash Rewards - Personal

Page 1 of 5

Rev. Date 06/01/20

This Agreement will cover any Platinum Mastercard® or World
Mastercard account (individually or collectively called "Credit Card
account") you have with us. By requesting or accepting a Credit Card
account, you agree to be bound by all the terms of this Agreement. In this
Agreement, the words "you" or "your" mean everyone who has requested or
accepted a Credit Card account with us. The words "we," "us," "our," or
"Bank" mean First Hawaiian Bank.
1. Use. Your Platinum Mastercard or World Mastercard (individually or
collectively called "Card") may be used as a credit card for purchases of
goods or services from participating merchants ("Purchases") or to get
Cash Advances from us or any other financial institution displaying the
"Mastercard" logo, or to purchase certain items such as traveler's cheques,
foreign currency, money orders, wire transfers, lottery tickets, or (except as
noted below) funds to be used for wagers or gambling (all of which are
collectively referred to as "Cash Advances") up to your Credit Limit/Revolve
Line.
You can also obtain a Cash Advance by writing a special check
(“Convenience Check”), which accesses the available Cash Advance limit
on your Credit Card account. Convenience Checks are available from us
upon request, or we may periodically provide Convenience Checks as a
special promotion. If you use a Convenience Check available upon request,
all of the terms of this Agreement applicable to Cash Advances will apply to
the Convenience Check. If we offer a special promotion, we will explain to
you any special terms of the use of the Convenience Checks. The Cash
Advance from a Convenience Check will be posted to your Credit Card
account when the Convenience Check reaches us. The Convenience
Check fee described on page 1 of this Agreement will be imposed on each
Convenience Check you write. If you stop payment on a Convenience
Check, your Credit Card account will be charged the fee shown in the
paragraph of this Agreement called “Other Fees."
From time to time we may offer a special balance transfer promotion,
which is an opportunity to make a Cash Advance to pay the balance on
another loan you have, by transferring the other loan balance to your Credit
Card account. If we offer a balance transfer promotion, at that time we will
explain to you the terms of the promotion. Unless we tell you otherwise, all
the references in this Agreement to balance transfers will apply to any
special balance transfer promotion offered.
Your Card may also be used in certain automated terminals to gain
access to your checking, savings, and Credit Card accounts.
Your Card and Credit Card account may be used only for valid and
lawful purposes. You may not use your Card (i) to make Purchases or
obtain Cash Advances for any illegal transaction, or (ii) for any internet or
online gambling transactions. Transactions for online or internet gambling
will not be approved. If you use your Card for any illegal or prohibited
transaction, this Agreement also applies to such transaction and you agree
to pay any and all amounts related to such transaction pursuant to the
terms of this Agreement. We may, in our sole discretion, restrict the use of
or terminate your Card if we notice excessive use of your Card or other
suspicious activities or if we reasonably believe the Card is or has been
used for one or more illegal or prohibited transactions.
We have no responsibility for the failure of any machine, merchant,
financial institution, or any other party to honor your Card. If you use or
allow someone else to use the Card or Credit Card account for any other
purpose, you will be responsible for such use and may be required to
reimburse us for all amounts or expenses we pay as a result of such use.
2. Special Cash Rewards Program. The Cash Rewards Program (the
"Program") is the reward benefits program established and maintained by
Bank. In addition to the other terms and conditions of this Agreement, the
terms and conditions set forth in the Cash Rewards Program Agreement
provided to you with this Agreement shall also apply to your Card.
Bank reserves the right to terminate the Program or to change the
terms and conditions of the Program at any time without prior notice. Bank
also has the right to add or delete benefits and services to your Credit Card
account at any time.
3. Credit Limit/Revolve Line. We will notify you of your Credit
Limit/Revolve Line for each Credit Card account you have with us, which is
the total amount of credit we agree to extend to you at any one time. Your
Credit Limit/Revolve Line will also include a separate limit for Cash
Advances. Your Credit Limit/Revolve Line and Cash Advance limit are
listed on your monthly periodic statement.
Your available Credit
Limit/Revolve Line is the amount of your total Credit Limit/Revolve Line
minus the sum of your New Balance, any authorized Purchases, Cash
Advances and Balance Transfers that have not posted to your Account, and
any payments that have not cleared. You may apply to increase your
Credit Limit/Revolve Line, and we reserve the right to lower it without prior
notice to you.
You agree that you will not let your total charges, including Purchases,
Cash Advances, FINANCE CHARGES (including but not limited to interest,
Foreign Transaction Fees, Cash Advance, Balance Transfer, and
Convenience Check Transaction Fees), late charges, membership fees,
and other fees that may be due exceed your Credit Limit/Revolve Line. If
you exceed your Credit Limit/Revolve Line, you will be considered to have
exceeded your Credit Limit/Revolve Line for all purposes of the Agreement,
and we may reduce the available Credit Limit/Revolve Line of any other
Credit Card account you have with us until such time as the excess amount
is paid.
You are responsible for keeping track of your New Balance and your
available Credit Limit/Revolve Line. We may but are not required to
approve transactions above your Credit Limit/Revolve Line up to a certain
percentage of your Credit Limit/Revolve Line which we establish from time
to time for you based on our established evaluation criteria. If we do
approve those transactions, those transactions will not increase your Credit
Limit/Revolve Line. You are responsible for repaying all over-limit amounts
and FINANCE CHARGES will be assessed on those amounts.
For security reasons, we may limit the number or amount of Purchase,
Cash Advance, and/or Convenience Check transactions that may be
accomplished with your Card or Credit Card account. We may also limit
authorizations to make Purchases or obtain Cash Advances if we consider
it necessary to verify collection of Payments received on your Credit Card
account.
Cash Rewards - Personal

World Mastercard Revolve Line. Amounts over your Revolve Line
may be referred to as a non-revolving line. The Revolve Line is the
maximum amount upon which you may defer payment on your account,
subject to the minimum required payment that must always be paid on time.
There is no pre-set spending limit for your account. With no pre-set
spending limit, you have the flexibility to make purchases in excess of your
stated Revolve Line. However, having no pre-set spending limit does not
mean unlimited spending. Instead, each charge is evaluated based on the
spending and payment patterns on the account, merchant type, information
from consumer credit reports obtained from credit bureaus including your
experience with other creditors, and our understanding of your resources.
Without limiting the foregoing, we may also decline an authorization request
for any transaction at any time as described in the section of this
Agreement called "Authorizing Transactions." We may also request
additional information from you at any time to evaluate a transaction
request or your use of the account in general. In addition, all of the
provisions above in this section apply. Your World Mastercard account
may provide additional benefits and features and may have additional
charges that will be described in separate documentation for the World
Mastercard program, all of which is incorporated by this reference. You
authorize us to enroll you in benefits and programs that we may offer from
time to time associated with your account, including without limitation
benefits and programs that we offer exclusively to holders of World
Mastercard accounts. Accessing some of the benefits and services under
the World Mastercard program may involve charges to your account. You
are responsible for all such charges, even if your account has been closed
for any reason.
4. Temporary Reduction of Credit Limit/Revolve Line. Merchants, such
as car rental companies and hotels, may request prior credit approval from
us for an estimated amount of your Purchases, even if you ultimately do not
pay by credit. If our approval is granted, your available Credit Limit/Revolve
Line will temporarily be reduced by the amount authorized by us. If you do
not ultimately use your Credit Card account to pay for your Purchases or if
the actual amount of Purchases posted to your Credit Card account varies
from the estimated amount approved by us, it is the responsibility of the
merchant, not us, to cancel the prior credit approval based on the estimated
amount. The failure of the merchant to cancel a prior credit approval may
result in a temporary reduction of your available Credit Limit/Revolve Line,
but will not increase the amount you owe us under this Agreement.
5. Agreement to Pay. When you use your Card or Credit Card account or
when you permit anyone to use it, you agree to pay the amount of any and
all Purchases or Cash Advances (including Purchases and/or Cash
Advances which may have been made in violation of this Agreement),
FINANCE CHARGES (including but not limited to interest, Foreign
Transaction Fees, Cash Advance, Balance Transfer, and Convenience
Check Transaction Fees), late charges, membership fees, and other fees
that may become due as shown on the periodic statement. If we accept a
payment from you in excess of your outstanding balance, your available
Credit Limit/Revolve Line will not be increased by the amount of the
overpayment nor will we be required to authorize transactions for an
amount in excess of your Credit Limit/Revolve Line.
6. Periodic Statement. Each month we will send you a periodic
statement for each Credit Card account you have with us covering the
previous billing period. We may not send you a statement if your balance is
zero and there were no transactions during the billing period. The statement
will have a "Statement Closing Date" and a "Payment Due Date," and will
show, among other things, your "Previous Balance," your "New Balance,"
and your minimum monthly payment, which will be shown as "Minimum
Payment Due." The periodic statement is part of this Agreement. If you
choose to receive periodic statements electronically, the statements will be
deemed to have been sent to you when they are first made available for
you to view online.
7. Payment. You must make a payment by the "Payment Due Date." You
have two choices: You may pay the entire "New Balance" or you may pay in
installments by paying at least the "Minimum Payment Due." All payments
must be made in the lawful money of the United States of America. When
your payment is properly received, we will apply your Minimum Payment as
permitted by law. If you make a payment in excess of the Minimum
Payment, the excess amount will be applied first to your balance with the
highest ANNUAL PERCENTAGE RATE. Any remaining amount of your
excess payment will be applied to the balance with the next highest
ANNUAL PERCENTAGE RATE, and so on. Upon confirmation of
collection, we will add any Cash Advances or Purchases repaid to your
available Credit Limit/Revolve Line; however, in the event of payment by
personal or business check, we may delay replenishing your available
Credit Limit/Revolve Line until your check clears. This means that you may
not have access to all or part of the Credit Limit/Revolve Line until we have
collected the funds by which you have made payment on the account. If
payments are made by certified or cashier's check, electronic funds
transfer, automated clearing house, or other means that provide immediate
collected funds, we may waive the right to delay restoration of the Credit
Limit/Revolve Line.
Payments must be mailed to the BankCard Center address specified in
your statement. Payments must reach our BankCard Center by 5:00 p.m.
HST during our regular business day in order to be credited on that date.
Payments received after the cutoff time of 5:00 p.m. HST will be credited as
of the following business day. If you make a payment in person at our
branches with the assistance of a branch employee prior to regular closing
time for the branch, the payment will be credited as of the date received. If
you make a payment by any means other than by mail to our BankCard
Center (including payments made by using FHB Online), crediting of your
payment may be delayed.
From time to time, we may let you skip or reduce one or more monthly
payments during a year and/or we may temporarily reduce or eliminate
certain FINANCE CHARGES on all or a portion of your Credit Card account
balance or offer you other special terms. If we do, we will advise you of the
scope and duration of the applicable skip or promotional feature. When the
skip or promotional feature ends, your regular rates and all the terms of the
Agreement will resume.

Page 2 of 5

Rev. Date 06/01/20

8. Minimum Payment–Late Charge. At least the amount of the
"Minimum Payment Due" must be received by us by the "Payment Due
Date." If it is not, we may apply the late charge shown on page 1 (if
permitted by law), unless such charge would result in an interest charge
greater than the maximum allowable by law, in which case we will only
charge the maximum allowable rate. The "Minimum Payment Due" will
include the amount calculated by using the table shown below, and will also
include any amount past due on your account. Your statement will include
the past due amounts as part of the “Minimum Payment Due.”
"New Balance"
$ 0.01 – $24.99
$25.00 or more

"Minimum Payment Due"
Entire "New Balance"
$25 or 3% of "New Balance",
whichever is greater

9. When You Must Pay to Avoid Interest Charges. There may be
different treatment of interest charges for Purchases and Cash Advances,
even though they are computed the same way. You may avoid paying an
interest charge on Purchases if you pay the entire New Balance early
enough to reach us by the Payment Due Date. If we do not receive the
entire New Balance by the Payment Due Date, the interest charge will be
charged on Purchases from the date of the transaction. Interest charges on
Cash Advances begin on the transaction date of each Cash Advance and
will be assessed even if your entire New Balance is paid by the Payment
Due Date.
10. Computing Your Interest Charge. We figure the interest charge on
your account by applying the periodic rate to the "Average Daily Balance" of
Purchases and "Average Daily Balance" of Cash Advances, including
current transactions.
a. Average Daily Balance. To get the "Average Daily Balance" of
Purchases, we take the beginning balance of your Credit Card account
each day, add any new Purchases, and subtract any Cash Advances,
payments, or other credits which were applied to Purchases, unpaid
FINANCE CHARGES, late charges, membership fees, and other fees.
If you paid the Purchases balance in full by the Payment Due Date in
the previous billing cycle, in the current billing cycle we will credit
payments otherwise applicable to Purchases based on our allocation
method as of the first day of the current billing cycle. These
computations give us the Purchases daily balance. To get the "Average
Daily Balance" of Cash Advances, we take the beginning balance each
day, add any new Cash Advances, and subtract any Purchases,
payments, or other credits which were applied to Cash Advances,
unpaid FINANCE CHARGES, late charges, membership fees, and
other fees. This gives us the Cash Advances daily balance. Then we
add up all of the Purchases or Cash Advance daily balances for the
billing period and divide each total by the number of days in the billing
period. This gives us the "Average Daily Balances."
b. Figuring the Interest Charge. We compute the interest charge by
multiplying these Average Daily Balances by the Daily Periodic Rate,
and then we multiply the result by the number of days in the billing
period. To determine the Daily Periodic Rate, we divide the ANNUAL
PERCENTAGE RATE in effect for the billing period by 365. Your Credit
Card account is made on a Variable Rate basis for Purchases, and the
ANNUAL PERCENTAGE RATE and Daily Periodic Rate for Purchases
are described in the paragraph of this Agreement below called "Variable
Rate." The Daily Periodic Rate for Cash Advances is a Fixed Rate of
.0493%, which is equivalent to an ANNUAL PERCENTAGE RATE of
18.00%.
c. Variable Rate. The current ANNUAL PERCENTAGE RATE for
Purchases is shown on page 1 of this Agreement. The Daily Periodic
Rate for Purchases is .0445%. The Daily Periodic Rate and the
corresponding ANNUAL PERCENTAGE RATE may change (by
increasing or decreasing) on the first day of each of your billing cycles
that begin in March, June, September, and December. Each date on
which the rate of interest could change is called a "Change Date."
Changes will be based on changes in the "Index." The Index is the
highest U.S. Prime Rate published in the "Money Rates" section of The
Wall Street Journal on the last business day of the calendar month prior
to the month in which the Change Date occurs. The most recent Index
is called the “Current Index.” If the Index is no longer available, we will
choose a new index based upon comparable information and will give
you notice of our choice. Your interest rate for Purchases is based on
a variable rate equal to the sum of the Current Index plus a "Rate
Spread" of 12.99 percentage points. (The Rate Spread is also called the
Margin.) Immediately before each Change Date we will determine the
new interest rate for Purchases by adding the Rate Spread to the
Current Index. For example, if the Current Index was 3.25% and the
Rate Spread 12.99 percentage points, the ANNUAL PERCENTAGE
RATE would be 16.24% and by dividing this percentage figure by 365,
we would compute a Daily Periodic Rate of .0445%. The new interest
rate for Purchases will become effective at the start of your first billing
cycle after the Change Date. The ANNUAL PERCENTAGE RATE will
not exceed the maximum rate permitted by law. The effect of any
increase in the ANNUAL PERCENTAGE RATE and the Daily Periodic
Rate for Purchases would be to increase the amount of interest you
must pay and thus increase your monthly payments.
d. Introductory and Promotional Rates. At our discretion, we may
offer you an introductory or promotional ANNUAL PERCENTAGE RATE
for your Credit Card account. For example, we may offer you an
introductory ANNUAL PERCENTAGE RATE for Purchases when you
open your Credit Card account, or a promotional ANNUAL
PERCENTAGE RATE for Balance Transfers. The time period for which
the introductory or promotional ANNUAL PERCENTAGE RATE applies
may be limited. Any introductory or promotional ANNUAL
PERCENTAGE RATE offer will be subject to the terms of the offer and
this Agreement, including but not limited to the Penalty APR described
in the paragraph of this Agreement called “Default”. We will provide you
with information on the offer, including the time period the introductory
or promotional ANNUAL PERCENTAGE RATE is in effect in the
documents that accompany your Credit Card or in the materials we
send you about the offer after you receive your Credit Card.
Cash Rewards - Personal

e. Military Lending Act Disclosures. Federal law provides important
protections to members of the Armed Forces and their dependents
relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36 percent.
This rate must include, as applicable to the credit transaction or
account; the costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction; any
application fee charged (other than certain application fees for specified
credit transactions or accounts); and any participation fee charged
(other than certain participation fees for a credit card account).
Additional oral disclosures are available at 1-877-640-2337.
11. Minimum Interest Charge. If the interest charge for all balances on
your Credit Card account is less than $1.00, we will charge you the
Minimum Interest Charge shown on page 1. This charge is in lieu of any
interest charge
12. Foreign Transaction Fee. If you make a Purchase or Cash Advance
in a foreign currency, it will be billed to you in U.S. dollars. You will be billed
the foreign transaction fee for these Purchases and Cash Advances made
in foreign currency in the amount shown on page 1. This fee, which is a
FINANCE CHARGE, is not a foreign currency conversion charge and is not
based on our exchange cost.
13. Other Transaction Fees. We will charge your Credit Card account
when appropriate the Cash Advance and Convenience Check fees shown
on page 1, each of which are FINANCE CHARGES. Each of these fees will
be added to your Credit Card balance when charged.
14. Other Fees. You also agree to pay us the appropriate fees listed below
and shown on page 1, which may be amended from time to time by us. You
authorize us to charge your Credit Card account (or the account from which
you obtained money or information in the case of an automated terminal
transaction) for fees due to us. We reserve the right to waive these fees
from time to time. If we incur special expenses on your Credit Card account
due to a request made by you, we may also charge you for these expenses.
Automated Teller Machine (ATM) Transaction Fees
(For cards with ATM deposit account access)
At a First
At a Network
Hawaiian ATM
ATM
• Deposit Account Withdrawal
N/C
$3.00
 Domestic
 International
N/A
$5.00
• Balance Inquiry
N/C
$1.00
• Checking Account Statement
$1.50
N/A
Note: N/C = No Charge; N/A = Not Applicable; Domestic = at an ATM in
Canada, U.S. and its protectorates and territories, including Guam and the
Commonwealth of the Northern Mariana Islands (CNMI).
Payable at Time of Request
• Mastercard Temporary Replacement Card issued by
Mastercard International. Temporary card is good for
approximately one month and cannot be used in
ATMs
 Domestic Fee:
 International Fee:
• Emergency Cash Advance issued by Mastercard
International is limited to $1,000 or your available
credit limit/revolve line, whichever is less.
• Copy of Sales Draft
• Research Fee
• Statement Copy Fee
• Convenience Check Stop Payment Order/Return
Convenience Check Fee
• Listing in Combined Warning Bulletin Per Region

$ 95.00
$125.00
$ 50.00

$ 5.00
$ 20.00/hour
$ 5.00
$ 16.00
$ 10.00

Payable at Time of Delivery
• Replacement Card issued by First Hawaiian Bank
• Returned Payment Check (due to insufficient funds,
stop payment order on your check, etc.)

$ 20.00
Up to $35

15. Authorizing Transactions. We reserve the right to decline a
transaction on your account for any reason including but not limited to
operational considerations, your account being in default, or we suspect
fraudulent or unlawful activity. We are not responsible for any losses
incurred if a transaction on your account is declined for any reason, either
by us or a third party, even if you have sufficient credit available.
16. Credit Insurance is Optional. If you choose to purchase credit
insurance, the premiums will be computed on the Average Daily Balance of
Purchases and Cash Advance, including finance and other charges, up to
$5,000. The cost for credit insurance is 65¢ per $100 of your average daily
balance of Purchases and Cash Advances. During months when you have
no balances, there is no charge. Credit insurance premiums will be added
to your Credit Card account as Purchases.
17. Default. We may declare the entire balance for all Credit Card
accounts due and payable at once with or without notice or demand if any
of these events ("Default") happens:
a. If you miss a payment under this Agreement or any other obligation
you owe us; or
b. If you violate any terms of this Agreement.
If you are in Default, we may terminate your Credit Card account, make
no more additional loans or advances, and require you to immediately
repay the entire unpaid balance of all amounts due on your Credit Card
account, including but not limited to all loan amounts, late charges and
other charges assessed but not paid, and all of the FINANCE CHARGES
accrued but not paid. If we terminate your Credit Card account, your
obligation to repay the amounts you already owe us would continue.
At our option, we may also take action short of terminating your Credit
Card account. If your required Minimum Payment (shown on your periodic
statement as "Minimum Payment Due") is not received within 60 days of
the payment due date, we may increase your ANNUAL PERCENTAGE

Page 3 of 5

Rev. Date 06/01/20

RATE for Purchases and Cash Advances and any applicable promotional
rates to a .0493% Daily Periodic Rate and an ANNUAL PERCENTAGE
RATE (“Penalty APR”) of 18.00% fixed for the entire outstanding balance.
We will send you advance written notice that your ANNUAL PERCENTAGE
RATE will be increasing. Your payments under this Agreement, including
the amount of the FINANCE CHARGE, will increase as a result of the
increase in your Daily Periodic Rate and ANNUAL PERCENTAGE RATE,
and any such increase in your Daily Periodic Rate and ANNUAL
PERCENTAGE RATE will be shown on your periodic statement. We will
reinstate your Daily Periodic Rate and ANNUAL PERCENTAGE RATE to
the rate set forth in this Agreement once you have made six consecutive
Minimum Payments on or before the due date, starting with the first billing
cycle after the Penalty APR is imposed. If we take such lesser action
initially, we reserve the right to terminate your Credit Card account and
accelerate all amounts due under this Agreement regardless of whether any
additional events have occurred that would permit termination and
acceleration.
If you have a World Mastercard and fail to comply with any of the
special terms in this Agreement applicable to the World Mastercard
account, you will be in Default under this Agreement and we will have all of
the rights set forth in this Agreement as a result of the Default. In addition
to all of those rights, we may in our sole and absolute discretion convert
your World Mastercard account to any other type of account that we may
offer. Any such conversion may cause the elimination of the benefits
associated with the World Mastercard account without prior notice to you.
18. Automated Terminal Services Involving Your Checking or Savings
Account. (Some of these services are only available if your Credit Card
account is linked to your checking or savings account with us.)
a. Automated Terminals. You may use your Card in the following
automated terminals:
i. Our First Hawaiian automated teller machines (First Hawaiian
ATM").
ii. Any other automated teller machine (including any ATM we
may own besides First Hawaiian ATM) that is participating in a
network and accepts our Card ("Network ATM") and
iii. Any point-of-sale terminal that accepts our Card ("POS
terminal").
b. Services Available at an Automated Terminal.
i. You may use your Card at a First Hawaiian ATM to:
•
Withdraw cash from your checking or savings account.
•
Make deposits to your checking or savings account.
•
Move funds between your checking and savings
accounts.
•
Get your checking, savings, or Credit Card account
balances. These balances may not include some
transactions recently made in your account.
•
Move funds from your Credit Card account to your
checking account.
•
Get a Cash Advance from your Credit Card account.
•
Get an interim statement printout of all posted
transactions on your checking account since the last
regular statement period up to the previous business
day.
ii. You may use your Card at any Network ATM to (some of these
services may not be available at all Network ATMs):
•
Withdraw cash from your checking or savings account.
•
Get a Cash Advance from your Credit Card account.
•
Get your checking, savings, or Credit Card account
balances. These balances may not include some
transactions recently made in your account.
iii. You may use your Card at a POS terminal to purchase certain
merchandise. The amount of your purchase will automatically
be charged to your Credit Card account as a Purchase.
c. Limits of Automated Terminal Services.
i. Withdrawals and Cash Advances. You may withdraw cash or
get a Cash Advance from a First Hawaiian ATM up to an
aggregate amount of $500 each calendar day, provided that
this amount does not exceed your available account balance or
Credit Limit/Revolve Line. This amount may be less for cash
withdrawals and Cash Advances from Network ATMs. You
authorize us to charge any withdrawal by use of your Card to
your checking account or savings account as though you had
specifically signed a withdrawal authorization. If there are
insufficient funds in an account to cover such a withdrawal, you
agree that we may treat the amount of such withdrawal either
as a Cash Advance or as an overdraft that you will be obligated
to pay us on demand.
ii. Deposits. You may deposit up to $50,000 per transaction using
a First Hawaiian ATM. All deposits made with your Card and
placed in a First Hawaiian ATM are subject to receipt by us on
opening the First Hawaiian ATM and verification of the items
and the amounts.
iii. Moving Funds. You may move up to $50,000 per transaction
between your checking account and savings account or from
your Credit Card account to your checking account using a
First Hawaiian ATM.
d. Fees for Using Automated Terminal Services. The fees for using
certain automated terminal services are disclosed in the paragraph of
this Agreement called "Other Fees."
e. Card and Secret Code Use. You are responsible for all
transactions in which you use your Card in an automated terminal, or
the use of the Card by anyone else who uses it with your permission.
Security in use of the Card is provided by the secret code, which we will
provide you, and the magnetically encoded stripe on the Card. Please
keep the Card safe and also protect the secret code. Use the Card and
the secret code as instructed at all times. Please notify us of any
mechanical or operating failure in connection with the use of your Card.
Do not permit anyone else to use your Card and do not disclose your
secret code or record it on the Card. The Card remains the property of
Cash Rewards - Personal

the Bank and can be revoked and repossessed at any time. You must
return it to us when asked.
f. Time of Transaction. All transactions are subject to the time
necessary for us to process them. Any transaction made on a holiday or
after regular banking hours may be held by us until the next business
day. Any transaction involving an account or matter located at any other
office of the Bank is subject to receipt at the other office and the time
necessary to process it.
g. Documentation of Transfers.
i. Terminal Transfers. You can get a receipt at the time you
make any transfer at a First Hawaiian ATM, Network ATM, or
POS terminal.
ii. Periodic Statements. If you have a checking account, you will
get a monthly checking account statement. If you have
arranged for electronic access to your savings account, you
will get a quarterly savings account statement. However, if
there are any transfers in a particular month, you will get a
savings statement that month as well.
h. In Case of Errors or Questions About Your Electronic
Transfers Involving Your Checking or Savings Account. Call or
write to us at the telephone number and address stated in the
paragraph of this Agreement called "Where to Call or Write" as soon as
you can if you think your statement or receipt is wrong or if you need
more information about a transfer listed on the statement or receipt. We
must hear from you no later than 60 days after we sent you the first
statement on which the problem or error appeared. When reporting an
error or requesting more information:
i. Tell us your name and account number.
ii. Describe the error or the transfer you are unsure about, and
explain as clearly as you can why you believe it is an error or
why you need more information.
iii. Tell us the dollar amount of the suspected error.
If you tell us orally, we may require that you send us your complaint
or question in writing within 10 business days. We will determine
whether an error occurred within 10 business days after we hear from
you and will correct any error promptly.
We will tell you the results of our investigation within 10 business
days after we hear from you and will correct any error promptly. If we
need more time, however, we may take up to 45 days to investigate
your complaint or question. If we decide to do this, we will re-credit your
account within 10 business days for the amount you think is in error, so
that you will have the use of the money during the time it takes us to
complete our investigation. If we ask you to put your complaint or
question in writing and we do not receive it within 10 business days, we
may not re-credit your account.
We will tell you the results within three business days after
completing our investigation. If we determine that there was no error,
we will send you a written explanation. You may ask for copies of
documents that we used in our investigation.
i. Our Liability for Failure to Make Transfers. If we do not properly
complete a transfer to or from your account on time or in the correct
amount according to our agreement with you, we will be liable for your
losses or damages. However, there are some exceptions. We will not
be liable, for instance:
i. If, through no fault of ours, you do not have enough money in
your account to make the transfer;
ii. If the transfer would go over the credit limit on your overdraft
line;
iii. If the automated terminal where you are making the transfer
does not have enough cash;
iv. If the automated terminal was not working properly and you
knew about the breakdown when you started the transfer;
v. If circumstances beyond our control (such as fire or flood)
prevent the transfer, despite reasonable precautions we have
taken; or
vi. If your account does not contain enough money because we
have placed a hold on some items or the account is subject to
legal process.
vii. There may be other exceptions.
j. Disclosing Account Information to Third Parties. We may
disclose information to third parties about your account or the transfers
you make:
i. Where it is necessary for completing transfers;
ii. In order to verify the existence and condition of your account for
a third party, such as a credit bureau or merchant;
iii. In order to comply with government agency or court orders; or
iv. If you give us your written permission.
19. ATM Safety. It is important to be aware of your surroundings when
using an ATM, especially at night. When you are using an ATM, you should
secure any cash you withdraw before leaving the ATM. If you need to use
an ATM at night, consider taking someone you know with you, and only use
an ATM that is well-lit and unobstructed from view. If anything appears to
be suspicious, do not use the ATM. Always call 911 in the event of an
emergency or to report any suspicious activity. If you have any questions or
comments about the safety of any of our ATMs, please call us on Oahu at
(808) 844-4444 or 1-888-844-4444 from the neighbor islands, Guam, the
CNMI or Continental U.S.
20. Lost or Stolen Card; Your Liability for Unauthorized Use. Tell us at
once if you believe your Card has been lost or stolen. Telephoning is the
best way of keeping your possible losses down.
a. Unauthorized Use as Credit Card. You may be liable for the
unauthorized use of your Card as a credit card. You will not be liable for
unauthorized use of your Card as a credit card that occurs after you
notify us at the telephone number or address stated in the paragraph of
this Agreement called "Where to Call or Write," orally or in writing, of
loss, theft, or possible unauthorized use. In any case, your liability for
unauthorized use of your Card as a credit card will not exceed $50.
b. Unauthorized Use in Automated Terminals.

Page 4 of 5

Rev. Date 06/01/20

i. If you tell us within two business days, you can lose no more
than $50 if someone used your Card at an automated terminal
without your permission.
ii. If you do not tell us within two business days after you learn of
the loss or theft of your Card and we can prove that if you had
told us, we could have stopped someone from using your Card
at an automated terminal without your permission, you could
lose as much as $500.
iii. If you do not notify us at all, you could lose all the money in
your checking and savings accounts plus your maximum
overdraft line of credit.
iv. Also, if your statement shows transfers that you did not make,
tell us at once. If you do not tell us within 60 days after the
statement was mailed to you, you may not get back any money
you lost after the 60 days if we can prove that we could have
stopped someone from taking the money if you had told us in
time.
v. If a good reason (such as a long trip or a hospital stay) kept you
from telling us, we will extend the time periods.
21. Where to Call or Write. If you believe your Card has been lost or
stolen or that someone has transferred or may transfer money from your
account or otherwise use your Card or Credit Card account without your
permission, call: (808) 847-4444 on Oahu; Neighbor Islands, Guam,
Commonwealth of the Northern Mariana Islands (CNMI), or Continental U.S
call 1-800-342-2778 or write to: First Hawaiian Bank, BankCard Security
Department, P.O. Box 1959, Honolulu, Hawaii 96805.
22. Our Business Days. Our business days are Monday through Friday,
except for bank holidays.
23. Credit Investigation and Disclosure. You authorize us, both now and
in the future, to check your credit and employment history and to release
information about our credit experience with you in response to legitimate
credit inquiries. If you believe that we have incorrect information or have
reported inaccurate information about you to a credit bureau, please call us
at (808) 847-4444 (Oahu) or call toll-free at 1-800-342-2778.
24. Security Interest. We have no security for any amounts which become
due under this Agreement unless you have given us a specific security
interest in connection with the Agreement, which is described on the
Security Agreement Supplement to this Agreement.
25. Collection. You promise to pay all collection costs, including, without
limitation mailing and delivery charges, reasonable lawyers' fees and court
costs at trial and on appeal, all as permitted by law.
26. If There are More Than One of You. Each of you individually, or all of
you together, will be liable under this Agreement. We may collect from or
sue any one of you, or make any settlements or extensions with any one of
you, without giving up our rights against the other(s). You understand that
any one of you can make Purchases or get Cash Advances under this
Agreement which will be binding upon all of you.
27. No Waiver of Rights. If we choose to waive any of the terms or
conditions of this Agreement on a case-by-case basis, such as by not

declaring the entire balance due when the minimum monthly payment has
not been made on time, it does not mean that we have waived, or given up,
our right to exercise any of our rights or remedies under this Agreement in
the future. We are not required to use any particular kind of demand or
notice in order to collect amounts due to us under this Agreement. No
indulgence or acceptance by us of delinquent or partial payments
constitutes a waiver of our rights or of any provision of this Agreement. No
waiver of any existing default shall be deemed to waive any subsequent
default.
28. Changing Terms. We can change, add to, delete, or otherwise modify
the terms of this Agreement at any time in any way permitted by law. We
will send you advance notice of any change to this Agreement. If the
change affects use of your Card in an automated terminal, we will give you
advance notice of the change unless the change has to be made
immediately for security reasons. A notice of change we send you will
describe any right you have to opt out of a particular change, if any, and will
describe whether a particular change affects your outstanding balance. We
do not have to send a notice of the change if it favors you, such as by
reducing rates, increasing the maximum Credit Limit/Revolve Line, etc.
29. Canceling this Agreement. We have the right to cancel this
Agreement at any time by sending a notice to any one of you in writing. You
also have the same right to cancel this Agreement at any time by sending
us a notice in writing. If this Agreement is canceled by you or us, your
obligation to repay amounts you already owe under this Agreement would
continue, and you must return your Card to us.
30. Other Agreements. Use of your Card is subject to the terms of existing
regulations governing deposit accounts and other agreements and
disclosures for your checking, savings, and Credit Card accounts, and any
future changes.
31. Governing Law. This Agreement will be governed by the laws of the
State of Hawaii, and, as applicable, federal law, regardless of where the
Purchases or Cash Advances are made, and you agree that any legal
action that may be filed by you elsewhere will be transferred to an
appropriate court in Hawaii if we decide that we want it to be transferred.
32. Monitoring/Recording Telephone Calls. Our supervisory personnel
may listen to and record your telephone calls to us for the purpose of
monitoring and improving the quality of service you receive.
33. Emergency Situation. In the event of an emergency situation beyond
our reasonable control, such as an "act of God," war, fire, or natural
disaster, services involving your account could be available only in a
modified or reduced form or could be entirely unavailable. Unless expressly
prohibited by applicable law, you agree that we will have no liability to you
for such modification, reduction, or unavailability of services caused by an
emergency situation.

YOUR BILLING RIGHTS: Keep This Notice for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find a Mistake on Your Statement

•

If you think there is an error on your statement, write to us at:
First Hawaiian Bank
P.O. Box 1959
Honolulu, Hawaii 96805

If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We
will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do
not pay the amount we think you owe.

In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a
mistake.

If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.

You must contact us:
•
Within 60 days after the error appeared on your statement.
•
At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you think is
wrong.

If we do not follow all of the rules above, you do not have to pay the first
$50 of the amount you question even if your bill is correct.

You must notify us of any potential errors in writing. You may call us, but if
you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the
error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
•
We cannot try to collect the amount in question, or report you as
delinquent on that amount.
•
The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
•
While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
•
We can apply any unpaid amount against your credit limit/revolve
line.
After we finish our investigation, one of two things will happen:
•
If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
Cash Rewards - Personal

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased
with your credit card and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount
due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within
100 miles of your current mailing address, and the purchase price
must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods
or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at:
First Hawaiian Bank
P.O. Box 1959
Honolulu, Hawaii 96805
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay,
we may report you as delinquent.

Page 5 of 5

Rev. Date 06/01/20

